0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Robert J.
Doyle, Jr. v. Jacqueline Vigilante, was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 30th day of October,
2020:
Patricia A. Fecile-Moreland
Marks O'Neill O'Brien Doherty and Kelly
1617 John F. Kennedy Boulevard
One Penn Center, Suite 1010
Philadelphia, PA 19103
(215) 564-6688
pmoreland@mooclaw.com
Counsel for Respondent
Alfred J. (AJ) Fluehr, Esquire
FRANCIS ALEXANDER LLC
280 N. Providence Road I Suite 1
Media, PA 19063
(215) 341-1063
aj@francisalexander.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 30, 2020.

Donn aJ. Wo
Becker Gallagher Leg
lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

